<html>
<title> - NOMINATION HEARING FOR ELSA A. MURANO AND EDWARD R. McPHERSON</title>
<body><pre>[Senate Hearing 107-438]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-438
 
     NOMINATION HEARING FOR ELSA A. MURANO AND EDWARD R. McPHERSON
=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 26, 2001
                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry







  Available via the World Wide Web: http://www.agriculture.senate.gov




                     U.S. GOVERNMENT PRINTING OFFICE
79-499                       WASHINGTON : 2002
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                       TOM HARKIN, Iowa, Chairman

PATRICK J. LEAHY, Vermont            RICHARD G. LUGAR, Indiana
KENT CONRAD, North Dakota            JESSE HELMS, North Carolina
THOMAS A. DASCHLE, South Dakota      THAD COCHRAN, Mississippi
MAX BAUCUS, Montana                  MITCH McCONNELL, Kentucky
BLANCHE L. LINCOLN, Arkansas         PAT ROBERTS, Kansas
ZELL MILLER, Georgia                 PETER G. FITZGERALD, Illinois
DEBBIE A. STABENOW, Michigan         CRAIG THOMAS, Wyoming
BEN NELSON, Nebraska                 WAYNE ALLARD, Colorado
MARK DAYTON, Minnesota               TIM HUTCHINSON, Arkansas
PAUL DAVID WELLSTONE, Minnesota      MICHEAL D. CRAPO, Idaho

                     Mark Halverson, Staff Director

                    David L. Johnson, Chief Counsel

                      Robert E. Sturm, Chief Clerk

              Keith Luse, Staff Director for the Minority

                                  (ii)










                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Nomination Hearing for Elsa A. Murano and Edward R. McPherson....    01

                              ----------                              

                     Wednesday, September 26, 2001
                    STATEMENTS PRESENTED BY SENATORS

Harkin, Hon. Tom, a U.S. Senator from Iowa, Chairman, Committee 
  on Agriculture, Nutrition, and Forestry........................    01
                              ----------                              

                               WITNESSES

McPherson, Edward R., of Dallas, Texas, to be Chief Financial 
  Officer, United States Department of Agriculture...............    04
Murano, Elsa A., of Bryan, Texas, to be Under Secretary for Food 
  Safety, United States Department of Agriculture................    02
                              ----------                              

                                APPENDIX

Prepared Statements:
    McPherson, Edward R..........................................    16
    Murano, Elsa A...............................................    12
Document(s) Submitted for the Record:
    McPherson, Edward R., Biography..............................    47
    Murano, Elsa A., Biography...................................    20
    Opposition Letter for the Nomination of Elsa A. Murano.......    69

                              ----------                              










       NOMINATION HEARING: ELSA A. MURANO AND EDWARD R. McPHERSON

                              ----------                              


                     WEDNESDAY, SEPTEMBER 26, 2001

                                       U.S. Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 12:35 p.m., in 
room SD-106, Dirksen Senate Office Building, Hon. Tom Harkin,
    [Chairman of the Committee], presiding.
    Present or Submitting a Statement: Senators Harkin and 
Lugar.
    The Chairman. I would like to bring before the committee 
Dr. Elsa Murano and Mr. Edward McPherson.
    I as you both to stand and raise your right hand.
    Do you both swear or affirm that the testimony you are 
about to provide is the truth, the whole truth and nothing but 
the truth, so help you God?
    Mr. McPherson. I do.
    Dr. Murano. I do.
    The Chairman. Thank you. You may be seated.
    I am required to ask a question of both Dr. Murano and Mr. 
McPherson.
    Do you agree that, if confirmed, you will appear before any 
duly constituted committee of Congress, if asked to appear?
    Ms. Murano. I do.
    Mr. McPherson. I will, yes, sir.
    The Chairman. Thank you both very much, and thank you for 
your patience here today.

    STATEMENT OF HON. TOM HARKIN, A U.S. SENATOR FROM IOWA, 
              CHAIRMAN, COMMITTEE ON AGRICULTURE, 
                    NUTRITION, AND FORESTRY

    First, I want to welcome Dr. Elsa Murano, President Bush's 
nominee to be Under Secretary for Food Safety at the U.S. 
Department of Agriculture. The Under Secretary for Food Safety 
is this country's highest-ranking food safety official. It is 
one of our top scientific and public health appointments. It is 
a position that is critical to ensuring the safety of our food 
supply from contamination, either accidental or intentional.
    This is a relatively new position. The 1994 USDA 
Reorganization Act consolidated the USDA's food safety 
activities within the Food Safety and Inspection Service and 
created the Under Secretary for Food Safety position. The Under 
Secretary position was created by Congress to elevate the 
importance of food safety at USDA.
    The reorganization recognized that FSIS was an essential 
public health regulatory agency and a vital part of our public 
health system. It is a position that must be filled by a person 
with solid public health and scientific credentials, and I 
think the administration has found just such a person in Dr. 
Murano.
    Dr. Murano is a recognized expert in food safety and has 
held a variety of leadership positions in the field. Most 
recently, Dr. Murano has been a professor at Texas A&M 
University and Director of its Center for Food Safety. Of 
greatest interest to me, however, was the five years that Dr. 
Murano spent at Iowa State University, my alma mater, at the 
linear accelerator facility. This, again, is something which I 
believe can be very important not only to our food safety, but 
for exports as well.
    We also want to welcome Mr. McPherson, to be the Chief 
Financial Officer for the USDA. Again, you have been nominated 
to an important position. As CFO, you will have responsibility 
for achieving effective financial management for the 
Department. This will be a huge challenge.
    The USDA does not have strong corporate financial systems. 
Because of this and other reasons, USDA has not been able to 
achieve a ``clean audit.'' It is one of only a few departments 
that carries this mark of distinction.
    Mr. McPherson, you have a job ahead of you, but I have read 
your credentials and your background, and it is obvious that 
you bring the right credentials and the right background to 
this position.
    We welcome both of you to the committee, and I will yield 
to Senator Lugar for any opening comments.
    Senator Lugar. Thank you very much, Senator Harkin. I just 
have one question of each of the nominees, if that is 
permissible at this point in our hearing.
    The Chairman. We want to have them make an opening 
statement first.
    Senator Lugar. Oh, of course. I am sorry. We got ahead of 
ourselves. You have not testified yet. I commend both the 
nominees and look forward to your testimony.
    The Chairman. Thank you.
    I would recognize Dr. Murano now. Again, your full 
statements will be made a part of the record in their entirety 
and if you could just summarize those, we would deeply 
appreciate it.
    Dr. Murano.

   STATEMENT OF ELSA A. MURANO, OF BRYAN, TEXAS, TO BE UNDER 
           SECRETARY FOR FOOD SAFETY, UNITED STATES 
                   DEPARTMENT OF AGRICULTURE.

    Dr. Murano. Thank you, Chairman Harkin and Ranking Member 
Lugar, distinguished members of the committee, but there is 
nobody else here except the two of you. I am greatly honored 
and humbled to appear before you today as President Bush's 
nominee for Under Secretary for Food Safety at the United 
States Department of Agriculture. I would like to publicly 
thank the President and Secretary Ann Veneman for their support 
and for their trust in nominating me for this position.
    I am a native of Havana, Cuba. My family and I emigrated to 
the United States about 40 years ago. As a Cuban American, I 
can proclaim to you without hesitation that we live in the 
greatest country on the face of the Earth. America opened her 
arms to Cubans fleeing Castro's regime, allowing me the 
incredible opportunities that have led to my appearing before 
you today.
    On behalf of my family and countless Cuban Americans, I 
thank the United States of America, my country, for standing up 
for freedom and for the generosity and indomitable spirit of 
her people.
    It was 1961 when my parents, my brother George and I left 
our homeland, settling in Puerto Rico, where I attended an 
elementary school. A few years later, we moved to Miami, 
Florida, where I worked my way through school, graduating with 
a B.S. in biology from Florida International University.
    I developed a deep interest in the medical field and in 
public health, which guided me to earn an M.S. degree in 
anaerobic microbiology and a Ph.D. in food science from 
Virginia Tech. I also developed an appreciation for the field 
of food microbiology, and decided to dedicate my life to the 
study of bacteria which, although microscopic, are capable of 
causing so many cases of food-borne illness each year in our 
country and throughout the world.
    As you know from reading my background documents, I have 
been a researcher and teacher in the field of food safety, both 
at Iowa State and Texas A&M Universities, and I think we know, 
Mr. Chairman, which of those two you think is the best.
    My research efforts have led me to investigate organisms 
like Escherichia coli 0157:H7, Listeria monocytogenes, and 
salmonella--all the bad actors that have become household 
words. My approach in this work has been to determine where 
these pathogens are found, and to investigate safe methods that 
can be used to control or eliminate them from farm to table.
    Throughout my career as a researcher, I have become keenly 
aware of the importance of sound scientific studies and how 
these can help provide us with the critical information we need 
to make decisions that will truly reduce the risk of food-borne 
illness.
    I have also observed the need for a proactive approach, one 
that does not react to food safety crisis, but rather 
anticipates risks. The events of September 11 are a reminder to 
all of us that we need to be diligent in order to prevent 
threats to our food supply as much as humanly possible.
    As an educator, I have seen how education can become one of 
our most effective tools in combatting food-borne illness. 
Although I am aware of the great strides that have been made in 
this arena with the FightBac campaign, there is still much to 
be done.
    My work in Latin America on HACCP training has opened my 
eyes to the importance of helping those countries, of whom we 
are a customer, to improve their food safety prevention 
systems. I have also come to believe very strongly that 
inclusion of all stakeholders working to attack the issues 
rather than each other is the key to our success in decreasing 
the risk of food-borne illness.
    We are all in this together--government, and I mean not 
only the agencies within USDA but other agencies that play a 
role in food safety; consumers, industry, educators and 
scientists. It is only through a team approach, working in 
total transparency and standing on the truth of science, that 
we will accomplish our goals for America of having the safest 
food supply possible.
    Thank you, Mr. Chairman. I look forward to working with you 
and the members of the committee, if they ever return, on these 
issues. Right now, I would be very happy to answer any 
questions.
    [The prepared statement of Dr. Murano can be found in the 
appendix on page 12.]
    The Chairman. Thank you, Dr. Murano. The only thing I would 
take issue with you on is that some of those really aren't 
household words; I still can't pronounce them.
    Now, we turn to Mr. McPherson.
    Mr. McPherson, again, your statement will be made a part of 
the record in its entirety. Please proceed.

STATEMENT OF EDWARD R. McPHERSON, OF DALLAS, TEXAS, TO BE CHIEF 
               FINANCIAL OFFICER, UNITED STATES 
                   DEPARTMENT OF AGRICULTURE

    Mr. McPherson. Thank you, Mr. Chairman, Senator Lugar, 
members of the committee. I am honored to be here as the 
President's choice for Chief Financial Officer of the 
Department of Agriculture. I appreciate the opportunity to be 
with you today so as to listen carefully to what is important 
to you in serving every constituent of the Department of 
Agriculture with skillful financial management.
    My preparation for today's meeting actually began over 30 
years ago, in Washington, when I served as a young Navy officer 
in an intense assignment with the Defense Intelligence Agency. 
Next, I gained insight into the Federal sector while with Booz-
Allen and Hamilton Public Administration Services.
    Subsequently, I spent 15 years as a corporate executive in 
the private sector, including serving as chief financial 
officer for two large and active New York Stock Exchange 
companies. For the past 13 years, as Chief Executive Officer of 
InterSolve Group, my business has been executing the commercial 
agenda of prominent American leaders by leading high-performing 
project teams of Just-In-Time Talent.
    Effective financial management at the Department of 
Agriculture requires focus on the following issues: internal 
control of accounting operations and data integrity based on 
sound processes and integrated computing systems; solid cash 
management and lending and credit practices; a culture which 
values customer service and embraces the accountability of 
service-level agreements and key performance factors; 
resourceful deployment of financial assets and human capital; 
useful and timely management information enabling anticipatory 
decisionmaking and action; and, finally, clear communication 
and partnership with those served by the Department of 
Agriculture and those entrusted with setting policy, providing 
funding, and overseeing its operations.
    The Department of Agriculture has made progress in these 
important areas. If confirmed, my role is to reduce the time 
required, lower the risk, and achieve an attractive return from 
this ongoing effort, resulting an in Agriculture Department as 
known for skillful financial management as it is for the 
successes of its missions and programs.
    While one person with courage is often a majority, my 
experience is that sustained high performance comes from the 
collaborative effort of people energized toward common goals. 
If confirmed, I will draw on my experience and judgment as a 
corporate financial executive, as a successful owner and 
entrepreneur, and my strong belief and trust in people to 
achieve the financial management goals of the Department.
    I am grateful for the love of my wife, Sally, for 32 years, 
and of our children, Beth and Edward, all who support me in my 
endeavors and help invent my life.
    If confirmed, I look forward to working together with each 
of you in achieving the results you seek in the vital work of 
the Department of Agriculture.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. McPherson can be found in 
the appendix on page 16.]
    The Chairman. Very good. Thank you, Mr. McPherson.
    Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Dr. Murano, earlier this year the committee conducted a 
hearing to receive testimony from Inspector General Viadero and 
Administrator Billy regarding the operation of the Food Safety 
and Inspector Service in the New York City and New Jersey 
areas. No less than 10 criminal investigations are reportedly 
underway at this time with regard to all of this.
    If you are confirmed, it would be my hope that within 30 
days you might provide the committee with a written plan for a 
strategy to review the entire operation of the Food and Safety 
Inspection Service, with particular reference to what we have 
already looked into in New York and New Jersey, but more 
broadly your own views of the rest of the Service.
    Are you aware of the investigation in New York and does it 
seem reasonable that within 30 days you could give us some 
indication of your plan of action?
    Dr. Murano. Senator, I am somewhat aware of that case. 
Definitely, if I am confirmed, one of the important things to 
do is to assess the state of the agency. When you consider that 
one of the most important things that the agency does is to 
inspect meat and poultry, it behooves us to assess the 
effectiveness of our inspection system.
    If I am confirmed, I will do my best to work with you and 
anybody else on the committee, and certainly I know that I will 
have the full cooperation of everybody at the agency behind me 
to come up with a document as soon as I can to address these 
issues and make sure that we are always vigilant, that our 
inspectors are doing their job as they are supposed to.
    Senator Lugar. Well, I thank you for that response. 
Obviously, your nomination and confirmation are important so 
that we can finally close that loop of leadership and not leave 
a vacuum, because these ongoing investigations are important in 
terms of the integrity and credibility of our system.
    Mr. McPherson, the Chairman has raised in his introduction 
of you the unfortunate fact that a clean audit has not come 
from the United States Department of Agriculture. You have 
certainly expressed in a very forthright way your own 
experience in business and your views with regard to what you 
anticipate you will do at USDA.
    Specifically, having examined the situation, do you believe 
that in a reasonably short period of time a clean audit will be 
possible; in other words, the blemish that has been mentioned 
quite appropriately by the chairman will be removed and the 
Department over which we have oversight finally comes into its 
own in terms of fiscal integrity?
    Mr. McPherson. I do believe a solution is possible, 
Senator, and the solution to fixing the Department's problems 
with financial statements and enhancing the management 
information that is available to all associates to lead and 
manage the enterprise will include the following elements: No. 
1, continuing strengthening the Department's internal controls 
and data integrity by converting to improved core accounting 
systems and the related work processes, especially those 
focused on cash management, and promising tools such as the 
data warehousing capability that is emerging that does support 
the preparation of the consolidated financial statements; No. 
2, as a practical matter, focusing on the important elements of 
financial management at USDA which, as you know, range from 
credit reform that addresses the Department's lending and 
credit function to real property. In other words, my focus is 
adding value to the actions where large amounts of money are 
involved.
    No. 3, having sufficient capacity in place in terms of 
human talent. There are a number of very capable and competent 
people that are working on these issues. The task going forward 
is to augment them with the talent that have clear roles, 
specific task plans, and the resources to produce sustainable 
results cost-effectively. As I suggested, my role is to reduce 
the time it takes to do those things, and lower the risk and 
get an attractive return on the investment being made in these 
initiatives.
    Senator Lugar. Well, I appreciate those goals and your 
articulation of them. In due course, however, we will get back 
to whether we have a clean audit. The reason I raise this is 
that over 15 years the Chairman and I have listened to many 
Secretaries of Agriculture and their subordinates, and we have 
found over the course of time, at least in the initial stages, 
they could not even identify how many employees there were in 
USDA, quite apart from the descriptions of stovepipe 
mentalities, computers that did not express themselves to each 
other, and during the Y2K crisis a whole raft of obsolescent 
computers that finally were scrapped.
    Now, these situations happen in a large bureaucracy of 
100,000-plus people all over the country. It is not unusual 
that there are accounting difficulties in terms of everybody 
finding out where it all is. We are asking you to do that on 
behalf of the Department and on behalf of good Government.
    I appreciate your own analysis and I wish you well as you 
try to get to the clean audit.
    Mr. McPherson. I appreciate, Senator Lugar, your 
articulation of the result that you seek and we all seek.
    The Chairman. Thank you very much, Senator.
    Mr. McPherson, that was really the only question I had for 
you, and you responded quite forthrightly to that and I hope we 
can get to that point of having a clean audit as soon as 
possible.
    Dr. Murano, with the recent events of two weeks and one day 
ago, I hope we don't get tunnel vision in this country and 
think that we only are going to have to look at airlines and 
airplanes in terms of terrorist activities.
    Certainly, one vulnerable point for us is, of course, in 
our water and food supply. In terms of developing the proper 
approaches, not just towards response but to prevention and 
interdiction at an early point in time, it is going to be vital 
that we develop this, and you will be playing an important and 
key role in this effort.
    When you get to the Department, I hope that you will report 
back to this committee as soon as possible the need for any 
additional resources or authorities that you think USDA needs 
to ensure the biosecurity of our food and food supply systems 
in this country.
    I have been thinking about it in terms of HACCP. When we 
developed HACCP over all those years, there are certain points 
in our food processing where you know you are not going to get 
contamination and there are certain critical points where it 
can enter. That is what we wanted to look at. If you can 
address those points, then you are fairly certain that you are 
going to have a clean product at the end.
    It seems to me that the same applies to our food security. 
There are critical access points in the whole spectrum of our 
food supply system in this country. There are critical access 
points where terrorists and others who want to interrupt and 
strike terror in people might be able to do something. We need 
to identify those critical access points and make sure that we 
have the security at those points.
    I don't want to raise any undue fears, but I think we have 
to be honest about it and we have to address it forthrightly. 
If terrorists akin to those who did that awful thing two weeks 
and a day ago were to do something to our food supply that just 
raised a serious question in people's minds, it could be 
devastating for our economy and for our people.
    We have to be sure that we have those points covered, and 
that is where I look for your input and your suggestions. We 
need something soon. Maybe something exists--I don't know--in 
terms of a plan of action or in terms of preventative measures.
    Now, again, we focus on the response. What will be the 
response if this happens? I want to get in front of that. What 
do we do before that? We have to have both. If there is such a 
plan, I would like to know about it. If not, I encourage you to 
work with us. Like I said, if you need any additional resources 
or authorities, I ask that you come back to us as soon as 
possible so we can give you whatever you might need.
    The second thing is on the pathogen standards. As you know, 
when the rule was published in 1996 on HACCP and pathogen 
reduction, we were moving ahead. The pathogen reduction part of 
it was struck down in the Supreme Beef case, in Texas.
    For some time now, we have been asking the industry to get 
its act together and to provide us with some form of a solution 
to this that we could move ahead on. I think we have been very 
patient. I think the Chairman before me, sitting next to me, 
was very patient on that. I have been very patient on that. We 
have all been asking the industry to give us their best advice 
and suggestions on how we address this. Well, it is just not 
happening and so we need to have something.
    One of your first tasks will be to decide how to approach 
updating the salmonella performance standard. It is something I 
think that we have to attend to, and I hope we can do that 
before Congress adjourns this year. However, I don't know when 
that is going to be. At the end, the standards have to be 
enforceable. Whatever they are, they have got to be 
enforceable, and so I just have a couple of questions.
    Do you support having enforceable microbiological 
performance standards, including pathogen reduction standards, 
where at some point the Secretary of Agriculture withdraws an 
inspection for failure to meet them?
    Dr. Murano. Mr. Chairman, let me begin by saying that 
having been a microbiologist for 17 years, I truly do 
appreciate what microbiological standards are. I do also 
believe very strongly that we need to have standards in order 
to determine whether what we are doing or what industry is 
doing at the processing level is actually accomplishing the 
production of the safest food possible. There is no question 
about that in my mind.
    There is a study commissioned of the National Academy of 
Sciences that is due to begin very soon to look exactly at that 
issue that you just raised--the appropriate application of 
performance standards. It is a crucial issue. It is one that is 
going to help us tremendously to have the input of the 
scientific community, top scientists working on this very 
issue, to tell us what does science say that performance 
standards are, what should they be, salmonella standards or any 
other standards for that matter, and I look forward to that 
report.
    Prior to that report, I am also aware that the Food Safety 
and Inspection Service, through their National Advisory 
Committee on Microbiological Criteria for Food--they have 
commissioned that advisory committee to also weigh in on this 
issue. That committee's work will take a lot less time than the 
National Academy of Sciences study, which is a good thing 
because I agree with you. We need an answer to this as soon as 
possible because a lot is riding on it.
    I am confident this is the right way to approach. I know a 
lot of the scientists on both the National Advisory Committee 
and the NAS panel very well. I have complete confidence that 
they will do the right thing in terms of approaching it from a 
science base and be able to give us some guidance as to what we 
should do.
    The Chairman. Do you believe there is a role for pathogen 
standards in a HACCP-based regulatory system?
    Dr. Murano. Mr. Chairman, as I said, I believe that there 
is a role for pathogen standards. The HACCP system itself, if 
you look at it, relies on microbiological testing, which is at 
the base of standards, to verify if a critical control point is 
under control, to verify or validate the entire HACCP plan that 
a plant has. It is a crucial part of the system.
    The Chairman. I appreciate that. Thank you, Dr. Murano. 
Those are the questions I had.
    Do you have any followup?
    Senator Lugar. No.
    The Chairman. Well, I thank you both for your past 
contributions both in the private and public sector and on the 
research end. I thank you for your willingness to give of your 
time and your expertise to devote to public service. I think it 
is highly commendable.
    I hope that before we adjourn this afternoon in the Senate, 
we will be able to get both of your nominations through and 
have you at the Department with all of the power and authority 
that you need. With that, I want to thank you for being here.
    The Chairman. I want to especially thank Senator Lugar for 
all the time he has spent here today. Senator Lugar, as you 
know, is also on the Foreign Relations Committee and very 
heavily involved in all of the negotiations and things that are 
going on right now with the administration and with other 
countries. I think it is a mark of his intense interest in 
agriculture and our food system that he would spend so much 
time here today.
    I just want you to know I personally appreciate it very 
much, Senator Lugar.
    With that, the Committee on Agriculture will stand 
adjourned until the call of the Chair.
    [Whereupon, at 1:03 p.m., the committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                           September 26, 2001



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T9499.001

[GRAPHIC] [TIFF OMITTED] T9499.002

[GRAPHIC] [TIFF OMITTED] T9499.003

[GRAPHIC] [TIFF OMITTED] T9499.004

[GRAPHIC] [TIFF OMITTED] T9499.005

[GRAPHIC] [TIFF OMITTED] T9499.006

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           September 26, 2001



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T9499.007

[GRAPHIC] [TIFF OMITTED] T9499.008

[GRAPHIC] [TIFF OMITTED] T9499.009

[GRAPHIC] [TIFF OMITTED] T9499.010

[GRAPHIC] [TIFF OMITTED] T9499.011

[GRAPHIC] [TIFF OMITTED] T9499.012

[GRAPHIC] [TIFF OMITTED] T9499.013

[GRAPHIC] [TIFF OMITTED] T9499.014

[GRAPHIC] [TIFF OMITTED] T9499.015

[GRAPHIC] [TIFF OMITTED] T9499.016

[GRAPHIC] [TIFF OMITTED] T9499.017

[GRAPHIC] [TIFF OMITTED] T9499.018

[GRAPHIC] [TIFF OMITTED] T9499.019

[GRAPHIC] [TIFF OMITTED] T9499.020

[GRAPHIC] [TIFF OMITTED] T9499.021

[GRAPHIC] [TIFF OMITTED] T9499.022

[GRAPHIC] [TIFF OMITTED] T9499.023

[GRAPHIC] [TIFF OMITTED] T9499.024

[GRAPHIC] [TIFF OMITTED] T9499.025

[GRAPHIC] [TIFF OMITTED] T9499.026

[GRAPHIC] [TIFF OMITTED] T9499.027

[GRAPHIC] [TIFF OMITTED] T9499.028

[GRAPHIC] [TIFF OMITTED] T9499.029

[GRAPHIC] [TIFF OMITTED] T9499.030

[GRAPHIC] [TIFF OMITTED] T9499.031

[GRAPHIC] [TIFF OMITTED] T9499.032

[GRAPHIC] [TIFF OMITTED] T9499.033

[GRAPHIC] [TIFF OMITTED] T9499.034

[GRAPHIC] [TIFF OMITTED] T9499.035

[GRAPHIC] [TIFF OMITTED] T9499.036

[GRAPHIC] [TIFF OMITTED] T9499.037

[GRAPHIC] [TIFF OMITTED] T9499.038

[GRAPHIC] [TIFF OMITTED] T9499.039

[GRAPHIC] [TIFF OMITTED] T9499.040

[GRAPHIC] [TIFF OMITTED] T9499.041

[GRAPHIC] [TIFF OMITTED] T9499.042

[GRAPHIC] [TIFF OMITTED] T9499.043

[GRAPHIC] [TIFF OMITTED] T9499.044

[GRAPHIC] [TIFF OMITTED] T9499.045

[GRAPHIC] [TIFF OMITTED] T9499.046

[GRAPHIC] [TIFF OMITTED] T9499.047

[GRAPHIC] [TIFF OMITTED] T9499.048

[GRAPHIC] [TIFF OMITTED] T9499.049

[GRAPHIC] [TIFF OMITTED] T9499.050

[GRAPHIC] [TIFF OMITTED] T9499.051

[GRAPHIC] [TIFF OMITTED] T9499.052

[GRAPHIC] [TIFF OMITTED] T9499.053

[GRAPHIC] [TIFF OMITTED] T9499.054

[GRAPHIC] [TIFF OMITTED] T9499.055

[GRAPHIC] [TIFF OMITTED] T9499.056

[GRAPHIC] [TIFF OMITTED] T9499.057

[GRAPHIC] [TIFF OMITTED] T9499.058

[GRAPHIC] [TIFF OMITTED] T9499.059

                                   - 

</pre></body></html>
